                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS


                                CLOSEOUT MEMORANDUM

Case Number: A03090047                                                       Page 1of 2



    In September 2003, we received a n allegation of plagiarism.' A PI (subject1)z and
    co-PI (subject2)3 submitted a proposal4 to NSF that allegedly contained material
    plagiarized from a dissertation thesis5 and a n NSF grant.6
     We confirmed text i n the proposal appeared copied verbatim from the thesis and
     grant and wrote to the subjects for their explanations. Before we received a
     response from either subject, we received a telephone call from an individual (the,
     advisor)7 who had been subjectl's thesis advisor. The advisor said he was told of
    t h e allegation against subjectl and felt partly responsible. It is the long-standing
     practice in the advisor's laboratory to let his students use his unpublished text.
     When subjectl graduated, the advisor gave him research material with permission
     to use it in preparing his own research proposals. Unknown to subjectl, his advisor
     had given him research material prepared in a collaboration with the author of the
     dissertation thesis and NSF grant.
    As we subsequently learned from subjectl, the text he copied verbatim from the
    advisor's material was written by the advisor's collaborator, and not the advisor.
    Subject2 responded he did not prepare the text in question and had been told the
    events that led to the use of the copied text by subjectl.
    From the evidence, we conclude subjectl was responsible for the copied text in his
    proposal; therefore, the allegation against subject2 is without substance. Given
    that subjectl had been given unspecified permission to use his advisor's research
    material, and he was not informed by his advisor that some material was
    collaborative, we conclude subjectl did not have the requisite culpable intent.
    Subject1 has apologized to subject2 and the advisor's collaborator for hls use of


       1 (footnote redacted).
       2 (footnote redacted).
       3 (footnote redacted).
       4 (footnote redacted).
       5 (footnote redacted).
       6 (footnote redacted).
       7 (footnote redacted).
                                     NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR G E N E M L
                                        OFFICE OF INVESTIGATIONS


                          CLOSEOUT,MEMORANDUM


Case Number: A03090047
                                                                 11        Page 2 of 2


    copied text. We have sent a letter to subject1 suggesting he more carefully cite all
    non-original work, even if he has permission not to do so. We also called the advisor
    suggesting he more carefully discuss proper attribution with his students.
    Accordingly, this case is closed.
